C'OCKLE

2311 Douglas Si . -Mail 4
iouglas Street Legal Briefs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-18
ARTHUR GREGORY LANGE,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF SONOMA
COUNTY DISTRICT ATTORNEY’S OFFICE AND CALIFORNIA DISTRICT ATTORNEYS
ASSOCIATION AS AMICI CURIAE IN SUPPORT OF COURT-APPOINTED AMICUS
CURIAE AMANDA K. RICE IN SUPPORT OF THE JUDGMENT BELOW in the above entitled
case complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in
New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief
contains 8970 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as

needed.

Subscribed and sworn to before me this 13th day of January, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska A
i RENEE J. GOSS 0. ( hes Ai 2 Chih, 7

My Comm. Exp. September 5, 2023
Affiant 40530

 

Notary Public
